<html>
<title> - THE TENNESSEE VALLEY AUTHORITY'S KINGSTON ASH SLIDE: EVALUATION OF POTENTIAL CAUSES AND UPDATES ON CLEANUP EFFORTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                          THE TENNESSEE VALLEY
                    AUTHORITY'S KINGSTON ASH SLIDE:
                   EVALUATION OF POTENTIAL CAUSES AND
                       UPDATES ON CLEANUP EFFORTS

=======================================================================

                                (111-54)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
51-348                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland           Carolina
SOLOMON P. ORTIZ, Texas              TODD RUSSELL PLATTS, Pennsylvania
PHIL HARE, Illinois                  BILL SHUSTER, Pennsylvania
DINA TITUS, Nevada                   MARIO DIAZ-BALART, Florida
HARRY TEAGUE, New Mexico             CONNIE MACK, Florida
ELEANOR HOLMES NORTON, District of   LYNN A WESTMORELAND, Georgia
Columbia                             CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    ROBERT E. LATTA, Ohio
GRACE F. NAPOLITANO, California      ANH ``JOSEPH'' CAO, Louisiana
MAZIE K. HIRONO, Hawaii              PETE OLSON, Texas
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
PARKER GRIFFITH, Alabama
BOB FILNER, California
CORRINE BROWN, Florida
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Almes, William S., Senior Engineer and Director of Geotechnical 
  Services, Marshall Miller & Associates, Incorporated...........   116
Kilgore, Tom, President and Chief Executive Officer, Tennessee 
  Valley Authority...............................................   116
Moore, Richard, Inspector General, Tennessee Valley Authority....   116
Stanislaus, Mathy, Assistant Administrator, Office of Solid Waste 
  and Emergency Response, U.S. Environmental Protection Agency, 
  accompanied by Stan Meiburg, Acting Regional Administrator, 
  Region 4.......................................................   116
Walton, William H., Vice President and Senior Principal Engineer, 
  AECOM..........................................................   116

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cao, Hon. Anh "Joseph", of Louisiana.............................   136
Carnahan, Hon. Russ, of Missouri.................................   138
Cohen, Hon, Steve, of Tennessee..................................   139
Mitchell, Hon, Harry E., of Arizona..............................   142
Oberstar, Hon. James L., of Minnesota............................   143

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Almes, William S.................................................   146
Kilgore, Tom.....................................................   158
Moore, Richard...................................................   173
Stanislaus, Mathy................................................   176
Walton, William H................................................   187

                       SUBMISSION FOR THE RECORD

Almes, William S., Senior Engineer and Director of Geotechnical 
  Services, Marshall Miller & Associates, Incorporated, 
  supplementaty testimony........................................   149
Johnson, Rep. Eddie Bernice, a Representative in Congress from 
  the State of Texas, "Inspection Report: Review of the Kingston 
  Fossil Plant Ash Spill Root Cause Study and Observations about 
  Ash Management"................................................     3

[GRAPHIC] [TIFF OMITTED] T1348.001

[GRAPHIC] [TIFF OMITTED] T1348.002

[GRAPHIC] [TIFF OMITTED] T1348.003

[GRAPHIC] [TIFF OMITTED] T1348.004

[GRAPHIC] [TIFF OMITTED] T1348.005

[GRAPHIC] [TIFF OMITTED] T1348.006

[GRAPHIC] [TIFF OMITTED] T1348.007

[GRAPHIC] [TIFF OMITTED] T1348.008

[GRAPHIC] [TIFF OMITTED] T1348.009



  THE TENNESSEE VALLEY AUTHORITY'S KINGSTON ASH SLIDE: EVALUATION OF 
            POTENTIAL CAUSES AND UPDATES ON CLEANUP EFFORTS

                              ----------                              Tu
esday, July 28, 2009


                        House of Representatives

       Subcommittee on Water Resources and 
                               Environment,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The Subcommittee met, pursuant to call, at 10:30 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. Good morning. The Committee will come to 
order.
    Today's hearing will begin by offering the Committee's 
heartfelt condolences to the family of Larry LaCroix of 
Burlington, Iowa. Mr. LaCroix was part of the Kingston ash 
spill cleanup operation and was killed in a worksite accident 
on July the 20th. The Subcommittee extends our thoughts and 
prayers to his family.
    This hearing is being conducted as one of several hearings 
that meet the oversight requirements under clauses 2(n), (o), 
and (p) of Rule XI of the Rules of the House of 
Representatives.
    As originally envisioned, today's hearing was to focus on a 
technical review of the engineering analyses that evaluated the 
root causes of the December 2008 Kingston coal ash spill. 
However, since this hearing was originally planned, a number of 
reports have come to light that demand we look at the collapse, 
as well as the factors that led to it, with increased scrutiny. 
I have done so and have come to the conclusion that the causes 
as identified by TVA are, in fact, not causes at all. Rather, 
they are symptoms of more endemic issues facing the Tennessee 
Valley Authority.
    As such, this hearing will look to answer three basic 
questions: First, what geotechnical factors led to the spill; 
second, what human or management factors contributed to the 
collapse; and third, what actions will TVA take going forward.
    Testimony from Mr. Bill Walton from the engineering firm 
AECOM will help us answer the first question, based on the 
AECOM Root Cause Analysis Report upon which his testimony is 
formulated. We can learn the mechanisms of failure that led to 
the collapse of the Kingston storage facility.
    But that is only a part of the story. The second issue 
regarding management culture will be addressed by TVA's 
Inspector General Richard Moore and Bill Almes, an engineer 
from the firm of Marshall Miller & Associates.
    The third issue concerning what steps TVA is planing to 
take going forward, will be illuminated through this hearing.
    This morning's testimony comes in light of today's release 
of a TVA Office of Inspector General report. It highlights a 
string of problematic findings regarding TVA's management 
culture prior to the spill as well as new steps TVA has made in 
the months following.
    Last week the TVA Board released an additional report 
written by the law firm of McKenna Long & Aldrich that 
identifies a management culture that, in combination with a 
lack of accountability, standards, and controls, created 
conditions that resulted in this spill. In my opinion, these 
management failures were equally to blame for the Kingston 
spill and are relevant to the larger debate.
    I request unanimous consent that the McKenna report be 
included in the record.
    [The referenced information follows:]

    [GRAPHIC] [TIFF OMITTED] T1348.011
    
    [GRAPHIC] [TIFF OMITTED] T1348.012
    
    [GRAPHIC] [TIFF OMITTED] T1348.013
    
    [GRAPHIC] [TIFF OMITTED] T1348.014
    
    [GRAPHIC] [TIFF OMITTED] T1348.015
    
    [GRAPHIC] [TIFF OMITTED] T1348.016
    
    [GRAPHIC] [TIFF OMITTED] T1348.017
    
    [GRAPHIC] [TIFF OMITTED] T1348.018
    
    [GRAPHIC] [TIFF OMITTED] T1348.019
    
    [GRAPHIC] [TIFF OMITTED] T1348.020
    
    [GRAPHIC] [TIFF OMITTED] T1348.021
    
    [GRAPHIC] [TIFF OMITTED] T1348.022
    
    [GRAPHIC] [TIFF OMITTED] T1348.023
    
    [GRAPHIC] [TIFF OMITTED] T1348.024
    
    [GRAPHIC] [TIFF OMITTED] T1348.025
    
    [GRAPHIC] [TIFF OMITTED] T1348.026
    
    [GRAPHIC] [TIFF OMITTED] T1348.027
    
    [GRAPHIC] [TIFF OMITTED] T1348.028
    
    [GRAPHIC] [TIFF OMITTED] T1348.029
    
    [GRAPHIC] [TIFF OMITTED] T1348.030
    
    [GRAPHIC] [TIFF OMITTED] T1348.031
    
    [GRAPHIC] [TIFF OMITTED] T1348.032
    
    [GRAPHIC] [TIFF OMITTED] T1348.033
    
    [GRAPHIC] [TIFF OMITTED] T1348.034
    
    [GRAPHIC] [TIFF OMITTED] T1348.035
    
    [GRAPHIC] [TIFF OMITTED] T1348.036
    
    [GRAPHIC] [TIFF OMITTED] T1348.037
    
    [GRAPHIC] [TIFF OMITTED] T1348.038
    
    [GRAPHIC] [TIFF OMITTED] T1348.039
    
    [GRAPHIC] [TIFF OMITTED] T1348.040
    
    [GRAPHIC] [TIFF OMITTED] T1348.041
    
    [GRAPHIC] [TIFF OMITTED] T1348.042
    
    [GRAPHIC] [TIFF OMITTED] T1348.043
    
    [GRAPHIC] [TIFF OMITTED] T1348.044
    
    [GRAPHIC] [TIFF OMITTED] T1348.045
    
    [GRAPHIC] [TIFF OMITTED] T1348.046
    
    [GRAPHIC] [TIFF OMITTED] T1348.047
    
    [GRAPHIC] [TIFF OMITTED] T1348.048
    
    [GRAPHIC] [TIFF OMITTED] T1348.049
    
    [GRAPHIC] [TIFF OMITTED] T1348.050
    
    [GRAPHIC] [TIFF OMITTED] T1348.051
    
    [GRAPHIC] [TIFF OMITTED] T1348.052
    
    [GRAPHIC] [TIFF OMITTED] T1348.053
    
    [GRAPHIC] [TIFF OMITTED] T1348.054
    
    [GRAPHIC] [TIFF OMITTED] T1348.055
    
    [GRAPHIC] [TIFF OMITTED] T1348.056
    
    [GRAPHIC] [TIFF OMITTED] T1348.057
    
    [GRAPHIC] [TIFF OMITTED] T1348.058
    
    [GRAPHIC] [TIFF OMITTED] T1348.059
    
    [GRAPHIC] [TIFF OMITTED] T1348.060
    
    [GRAPHIC] [TIFF OMITTED] T1348.061
    
    [GRAPHIC] [TIFF OMITTED] T1348.062
    
    [GRAPHIC] [TIFF OMITTED] T1348.063
    
    [GRAPHIC] [TIFF OMITTED] T1348.064
    
    [GRAPHIC] [TIFF OMITTED] T1348.065
    
    [GRAPHIC] [TIFF OMITTED] T1348.066
    
    [GRAPHIC] [TIFF OMITTED] T1348.067
    
    [GRAPHIC] [TIFF OMITTED] T1348.068
    
    [GRAPHIC] [TIFF OMITTED] T1348.069
    
    [GRAPHIC] [TIFF OMITTED] T1348.070
    
    [GRAPHIC] [TIFF OMITTED] T1348.071
    
    [GRAPHIC] [TIFF OMITTED] T1348.072
    
    [GRAPHIC] [TIFF OMITTED] T1348.073
    
    [GRAPHIC] [TIFF OMITTED] T1348.074
    
    [GRAPHIC] [TIFF OMITTED] T1348.075
    
    [GRAPHIC] [TIFF OMITTED] T1348.076
    
    [GRAPHIC] [TIFF OMITTED] T1348.077
    
    [GRAPHIC] [TIFF OMITTED] T1348.078
    
    [GRAPHIC] [TIFF OMITTED] T1348.079
    
    [GRAPHIC] [TIFF OMITTED] T1348.080
    
    [GRAPHIC] [TIFF OMITTED] T1348.081
    
    [GRAPHIC] [TIFF OMITTED] T1348.082
    
    [GRAPHIC] [TIFF OMITTED] T1348.083
    
    [GRAPHIC] [TIFF OMITTED] T1348.084
    
    [GRAPHIC] [TIFF OMITTED] T1348.085
    
    [GRAPHIC] [TIFF OMITTED] T1348.086
    
    [GRAPHIC] [TIFF OMITTED] T1348.087
    
    [GRAPHIC] [TIFF OMITTED] T1348.088
    
    [GRAPHIC] [TIFF OMITTED] T1348.089
    
    [GRAPHIC] [TIFF OMITTED] T1348.090
    
    [GRAPHIC] [TIFF OMITTED] T1348.091
    
    [GRAPHIC] [TIFF OMITTED] T1348.092
    
    [GRAPHIC] [TIFF OMITTED] T1348.093
    
    [GRAPHIC] [TIFF OMITTED] T1348.094
    
    [GRAPHIC] [TIFF OMITTED] T1348.095
    
    [GRAPHIC] [TIFF OMITTED] T1348.096
    
    [GRAPHIC] [TIFF OMITTED] T1348.097
    
    [GRAPHIC] [TIFF OMITTED] T1348.098
    
    [GRAPHIC] [TIFF OMITTED] T1348.099
    
    [GRAPHIC] [TIFF OMITTED] T1348.100
    
    [GRAPHIC] [TIFF OMITTED] T1348.101
    
    [GRAPHIC] [TIFF OMITTED] T1348.102
    
    [GRAPHIC] [TIFF OMITTED] T1348.103
    
    [GRAPHIC] [TIFF OMITTED] T1348.104
    
    [GRAPHIC] [TIFF OMITTED] T1348.105
    
    [GRAPHIC] [TIFF OMITTED] T1348.106
    
    [GRAPHIC] [TIFF OMITTED] T1348.107
    
    [GRAPHIC] [TIFF OMITTED] T1348.108
    
    [GRAPHIC] [TIFF OMITTED] T1348.109
    
    [GRAPHIC] [TIFF OMITTED] T1348.110
    
    [GRAPHIC] [TIFF OMITTED] T1348.111
    
    [GRAPHIC] [TIFF OMITTED] T1348.112
    
    [GRAPHIC] [TIFF OMITTED] T1348.113
    
    [GRAPHIC] [TIFF OMITTED] T1348.114
    
    [GRAPHIC] [TIFF OMITTED] T1348.115
    
    [GRAPHIC] [TIFF OMITTED] T1348.116
    
    [GRAPHIC] [TIFF OMITTED] T1348.117
    
    [GRAPHIC] [TIFF OMITTED] T1348.118
    
    [GRAPHIC] [TIFF OMITTED] T1348.119
    
    [GRAPHIC] [TIFF OMITTED] T1348.120
    
    Ms. Johnson. The central thrust of this hearing, however, 
involves the future. Can the Tennessee Valley Authority assure 
Congress and the people of the Tennessee Valley region that its 
other coal ash disposal facilities are sound? In other words, 
can they ensure that they will not collapse, that they will not 
leech toxins into the groundwater, and that TVA facilities will 
not discharge carcinogenic and harmful substances into our 
Nation's waters?
    This second issue, informed by the TVA OIG and McKenna 
reports, leads us to a subsequent line of questions that the 
Subcommittee must get answers to, either in this meeting or in 
other hearings in the months ahead. Can TVA provide the public 
with credible risk assessments regarding the safety of its 
facilities, including its coal ash impoundments?
    Will the ongoing management and organizational changes 
occurring within TVA produce results that address all of the 
McKenna and TVA OIG report findings? Does TVA intend to become 
a proactive environmental steward? If so, how? Does the 
Congress need to take action to ensure that TVA facilities 
cease to pose threats to public safety, human health, and the 
environment?
    Today's hearing is troubling. These recently released 
reports indicate a management culture at TVA that is slow and 
sometimes resistant to change. Testimony from our witnesses 
today will help guide this Subcommittee to whether change must 
be instilled upon this Federal entity. It will only be through 
both acknowledgment of the issues that resulted in the Kingston 
collapse and an active effort to address these issues that TVA 
will be able to move forward.
    Thank you. I now recognize our Ranking Member, Mr. Boozman.
    Mr. Boozman. Thank you very much, Madam Chair. Today this 
Subcommittee continues its review of coal ash storage, 
specifically the December 22nd, 2008 incident at the Tennessee 
Valley Authority's power generating facility in Kingston, 
Tennessee.
    While public and private utilities have safely operated 
approximately 600 coal ash sites for decades with only a few 
documented failures, it is important to recognize that this 
spill directly impacted more than 40 property owners. Homes 
were rendered uninhabitable. Water mains and gas lines 
ruptured. Nearby neighborhoods had to be evacuated. It is my 
sincere hope that what occurred at the Kingston coal ash 
disposal site was an isolated incident.
    The witnesses today will discuss the causes of the accident 
and report on some of their observations about the Kingston 
site. In addition, these witnesses will address the agency 
culture within the Tennessee Valley Authority and how this may 
have contributed to the accident at Kingston.
    As George Romney once said, ``Nothing is as vulnerable as 
entrenched success.'' Traditionally, the Tennessee Valley 
Authority has been a good steward of the environment. Most of 
its employees, including some of the witnesses today, reside 
within the Tennessee Valley and are directly impacted by the 
actions taken by the agency.
    Additional laws or Federal regulations would probably not 
have prevented this terrible accident. New laws and regulations 
will not replace homes, family treasures, heirlooms, or other 
personal property lost as a result of the Kingston spill. 
However, this is little comfort for those property owners 
impacted by the Kingston spill who have sacrificed a great deal 
and who in some cases have forfeited their homes and other 
irreplaceable memories to this accident.
    Moving forward, it is important for the Tennessee Valley 
Authority, its Board of Directors, and its officers to review 
the agency's existing ash management practices, recognize any 
shortcomings, and subsequently make changes to ensure more 
appropriate risk management at its facilities. Due to its 
proximity to the Emory and Clinch Rivers, the Kingston site 
carried an elevated risk. However, the Tennessee Valley 
Authority needs to take aggressive steps at its other coal ash 
storage facilities to identify and reduce risk to the public 
and to the environment.
    Compliance at all levels within the Tennessee Valley 
Authority will help restore the level of trust that is expected 
of one of the Nation's largest power providers. The benefits 
that the Tennessee Valley Authority bring to the Nation are too 
important to be threatened by poor structures and poor 
management practices.
    I am encouraged by some of the recent statements by TVA 
management that indicate they get the message and intend to 
emerge from this accident a better agency. I hope that we can 
help them.
    I thank you, Madam Chair, for holding this hearing. I look 
forward to the testimony of the witnesses. With that, I yield 
back.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mr. Duncan for an opening 
statement.
    Mr. Duncan. Thank you very much, Madam Chairwoman. I don't 
have a formal written statement but I will say this: This spill 
was not in my district but it is 40 miles, roughly, from 
Knoxville.
    I sent a member of my staff very soon after this happened 
out there. A few days later I went out there and took a 
helicopter tour and got a briefing. I have mentioned before 
that I met with all kinds of people working for TVA and other 
Federal, State, and local environmental agencies. I also met 
with contractors. I have since met with others in regard to 
this spill, participated in a meeting at Senator Alexander's 
office with interested parties including some of the victims, 
and have also participated in two previous hearings of this 
Subcommittee. I think I have made my views pretty well known on 
this.
    TVA has been filled for years almost entirely with 
environmentalists in the best sense of that word. I understand 
that this retention pond and this system of storage was built 
in 1985, long before any of the current leadership of TVA was 
in there. All through those years the environmentalists at TVA, 
the EPA, and other agencies thought that this was just fine. 
Nobody really said anything about it.
    Now, this is a terrible thing that has happened to TVA and 
it is horrible for the people who have been severely damaged. 
But I have always said that I think everything within reason 
that could be done should be done. I think it has been done. 
The progress that has been made has been amazing.
    In our last hearing it was estimated that TVA's costs on 
this would be about $1 billion. That may be a lowball estimate, 
not counting the regulatory fines and lawsuits. Now, my feeling 
is that if you disregard people who have a vested monetary 
interest in this because they are connected to some 
environmental group that wants to get contributions and make 
money out of this, and if you put aside the contractors--and 
all these are good people--but if you put aside the views of 
the contractors who have a vested or monetary interest in this, 
if you put aside all those people who are not tied into one of 
those groups, I think 95 or 98 percent of the people who take a 
look at this would say that TVA has done and is doing 
everything humanly possible to get this area cleaned up.
    The progress has been tremendous. I think in the end this 
area is going to be cleaner than a lot of other areas around 
the Nation. You can never satisfy the extremists or the kooks 
in any situation. There will be some people that we will never 
satisfy no matter if we spent the entire Federal budget on this 
problem. But we have to be reasonable. We have to have a little 
balance and common sense in this situation. I think that TVA 
should be commended for all that they have done, are doing, and 
will do in regard to this situation.
    Thank you very much.
    Ms. Johnson. Thank you very much.
    Are there any other statements?
    Mr. Cao. Yes, Madam Chairwoman. First of all, I would like 
to thank you, Madam Chairwoman, for holding this important 
hearing. I will keep my remarks brief but I would like to take 
this opportunity to make some parallels between my community 
and the community experience at Kingston in regards to the 
spill.
    In December of 2008, a retention wall at Kingston Fossil 
Plant failed, releasing 5.4 million cubic yards of ash and 327 
million gallons of water onto the land and into the nearby 
rivers. The result of this failure was the release of five 
million cubic yards of coal ash into the Emory River and 300 
acres of land being filled with sludge, in some places up to 
six feet deep. This spill caused extensive disruption to the 
neighboring communities with evacuations and the loss of power 
and gas, not to mention the houses that were destroyed in the 
tidal wave of ash and water.
    It is a miracle that no lives were lost at the time of the 
spill. However, we do recognize the one life that was lost 
during the cleanup earlier this month.
    As the Representative of the second Congressional district, 
I have great empathy for the communities that were directly 
affected by this unexpected and unprecedented event. I am also 
well aware of the effect failures in protective structures can 
have on surrounding communities.
    The damage to Orleans and Jefferson Parishes four years ago 
wasn't because Hurricane Katrina made a direct hit on New 
Orleans. Instead, it was because the strength of the storm 
surge caused catastrophic failures in levees and flood walls 
throughout the city, especially in New Orleans East and the 
Lakeview area on the border with Navarre. The damage from these 
breeches included flooding in 80 percent of the city, damage to 
80 percent of the buildings, and damage to 40 percent of our 
housing stock. Because of these failures, the city remained 
under water for days and in some places weeks. But, like the 
Kingston spill, the environmental hazards were great. We all 
remember the images of the waters through which my constituents 
had to wade to get food and water. These were commonly referred 
to as a toxic soup because they were filled with sewage, 
gasoline, and oil, to say nothing of bacteria and disease.
    Like you, Madam Chairwoman, in the immediate aftermath of 
the catastrophic failures that occurred as a result of 
Hurricane Katrina, I sought accountability and assurances from 
the Federal Government, especially the Army Corps of Engineers, 
that repairs would be made to ensure such catastrophic failures 
never happen again.
    Through my work on this Committee and Subcommittee, I am 
closely overseeing the work of the Army Corps to ensure they 
are rebuilding our infrastructure to its former strength and 
beyond. One of my priorities is ensuring the complete 
rebuilding of the 17th Street and London Avenue Canals. I have 
cosponsored legislation which states this. I continue to work 
with the Army Corps and my delegation to ensure this protection 
is achieved for my constituents. Just like the community 
affected by the Kingston spill, my district cannot afford 
another disaster.
    Again, Madam Chair, thank you for holding this important 
hearing. I look forward to working with you as you continue 
your oversight of this important matter. Thank you very much.
    Ms. Johnson. Thank you very much.
    Testifying first is EPA's Assistant Administrator for Solid 
Waste and Emergency Response, Mr. Mathy Stanislaus. 
Accompanying Mr. Stanislaus is the Acting Regional 
Administrator for EPA's Region 4, Mr. Stan Meiburg. Mr. Meiburg 
will be available for questions. Our second witness is TVA's 
President and CEO, Mr. Tom Kilgore. Following him is Mr. 
William Walton, Vice President and Senior Engineer with AECOM.
    Our fourth witness is the TVA Inspector General, Mr. 
Richard Moore. Our final witness this morning, Mr. William 
Almes, is a Senior Engineer and Director of Geotechnical 
Services with Marshall Miller & Associates.
    Your full statements will be placed in the record. We ask 
that you try to limit your testimony to about five minutes as a 
courtesy to the other witnesses.
    I now recognize Mr. Stanislaus.

TESTIMONY OF MATHY STANISLAUS, ASSISTANT ADMINISTRATOR, OFFICE 
   OF SOLID WASTE AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL 
PROTECTION AGENCY, ACCOMPANIED BY STAN MEIBURG, ACTING REGIONAL 
   ADMINISTRATOR, REGION 4; TOM KILGORE, PRESIDENT AND CHIEF 
   EXECUTIVE OFFICER, TENNESSEE VALLEY AUTHORITY; WILLIAM H. 
 WALTON, VICE PRESIDENT AND SENIOR PRINCIPAL ENGINEER, AECOM; 
 RICHARD MOORE, INSPECTOR GENERAL, TENNESSEE VALLEY AUTHORITY; 
     AND WILLIAM S. ALMES, SENIOR ENGINEER AND DIRECTOR OF 
     GEOTECHNICAL SERVICES, MARSHALL MILLER & ASSOCIATES, 
                          INCORPORATED

    Mr. Stanislaus. Madam Chairwoman and Members of the 
Subcommittee, thank you for the opportunity to provide 
testimony on the U.S. Environmental Protection Agency's role in 
the response and cleanup of the release of coal ash from the 
Tennessee Valley Authority Kingston plant.
    Appearing with me today is Mr. Stan Meiburg, Acting 
Regional Administrator for EPA Region 4. Mr. Meiburg will be 
able to answer any questions you may have regarding Region 4's 
efforts related to the Kingston spill response.
    I will summarize my testimony but I ask that my entire 
statement be submitted for the hearing record.
    As you know, Madam Chairwoman, TVA's Kingston facility 
suffered a catastrophic failure, releasing an estimated 5.4 
million cubic yards of coal ash into the Emory and Clinch 
Rivers and surrounding areas. Shortly after learning of the 
release, EPA deployed an on-scene coordinator to the site. EPA 
joined TVA, the Tennessee Department of Environment and 
Conservation, and other State and local agencies in a 
coordinated response. EPA served as the lead Federal agency 
throughout the emergency phase of the response and provided 
oversight and technical advice to TVA.
    On January 12th of 2009, the Tennessee Department of 
Environment and Conservation issued an order to TVA to develop 
a corrective action plan to address the spill and to conduct a 
root cause analysis to determine the cause of the dike failure. 
Over time, the lead Federal agency designation transitioned to 
TVA as cleanup efforts moved into the recovery phase.
    Subsequently, on May 11, 2009, EPA entered into an 
administrative order and agreement on consent, AOC, with TVA 
pursuant to EPA's authority under the Comprehensive 
Environmental Response Compensation and Liability Act, CERCLA, 
under which TVA will continue to perform the response action 
with EPA oversight. The EPA AOC with TVA does not replace the 
Tennessee Department of Environment's order, which remains in 
effect. EPA's working relationship with the State of Tennessee 
has been exceptional and we will continue that partnership.
    Under the AOC, response actions will take place through 
time critical and non-time critical removal actions. The AOC 
will help ensure that the cleanup is comprehensive, fully 
transparent to the local community and public, and meets all 
Federal and State environmental standards. A principal 
objective of the time critical phase of the removal is to 
recover the major portion of coal ash in the Emory River to 
help minimize the potential for flooding and downstream 
migration of the coal ash.
    Under the Tennessee Department of Environment's order and 
the EPA AOC, TVA was required to perform a detailed analysis of 
off-site disposal options for coal ash removed from the Emory 
River. That effort resulted in the selection of the Arrowhead 
Landfill in Perry County, Alabama as the best off-site facility 
to receive the coal ash generated from the time critical 
removal action. The landfill is fully lined and meets all 
technical requirements specified by State and Federal 
regulations.
    Another important factor in the selection was the 
preference for rail transportation. Rail transportation greatly 
reduced the potential for vehicle accidents, avoids local 
traffic burdens, and is approximately three times more fuel 
efficient than truck transportation. After a thorough review, 
EPA approved the selection of the Arrowhead Landfill.
    As stated in previous testimony provided to the 
Subcommittee, the failure of the ash impoundment at TVA's 
Kingston plant highlighted the issue of impoundment stability. 
EPA is currently conducting an assessment of impoundments and 
other management units which contain wet handled coal 
combustion residuals. We are finalizing our review of the 
responses to the CERCLA 104(e) letters that were sent to 
facilities. Overall, the assessment responses are from more 
than 200 facilities which have identified more than 500 
management units. We expect to post that information on the EPA 
website within the next six to eight weeks.
    In the meantime, EPA staff and contractors are in the field 
conducting on-site visits and inspections of those management 
units reported as having a high or significantly high hazard 
potential while also reviewing any current dam safety reports 
available from States or the facilities. Our goal is to 
complete all of the assessments for dams with high and 
significant hazard potential ratings this year.
    As to TVA's root cause analysis of the Kingston facility 
failure, EPA staff have reviewed the currently released 
analysis report which identifies some of the factors that could 
have contributed to the Kingston facility structural failure. 
EPA contractors are looking for structural stability factors in 
our ongoing impoundment and management unit assessment efforts. 
Some of the factors being looked for include the size, age, and 
location of the structures; size of dam or dike erosion; 
settlement, cracks, or other signs of deterioration; seepage or 
leakage; and site soil, groundwater, and surface water 
characteristics.
    In addition, EPA is evaluating coal ash residual disposal 
practices at coal fired power plants to determine if these 
facilities are in compliance with existing Federal 
environmental laws. We will take enforcement action where 
appropriate to address serious violations.
    Madam Chairwoman, that concludes my prepared remarks. 
Either I or Stan Meiburg will be pleased to answer any 
questions that you or the Subcommittee Members may have. Thank 
you.
    Ms. Johnson. Thank you very much.
    We will now hear from Mr. Kilgore.
    Mr. Kilgore. Madam Chairwoman, Ranking Member Boozman, and 
Members of the Committee, thank you for the opportunity to 
update you on TVA's progress in the recovery of the Kingston 
Fossil Plant spill. We appreciate the Committee's oversight. 
Madam Chairwoman, we appreciate your visit to the site last 
June.
    We are working hard to rebuild the pubic trust. We know 
that that is going to be a difficult task but we are working to 
make sure that nothing like this happens again.
    When the event happened, I knew we had to do many things. I 
am here today to talk about what we did on root cause and to 
ensure that our other facilities were safe. I knew we needed 
technical answers about why Kingston happened, but even more 
urgently we needed to find out about our other sites.
    To get those answers, we commissioned two internationally 
recognized and respected engineering firms. AECOM was brought 
in to conduct the root cause analysis of Kingston and the spill 
itself. Stantec, another firm, was commissioned to evaluate the 
structural integrity of all of TVA's other ash ponds. We used 
two different firms because of the urgency of the situation and 
the size and the scope before each firm.
    As you will hear shortly from Mr. Walton, AECOM's extensive 
forensic investigation determined that four long-evolving 
conditions, some existing since the 1950s, caused the event. I 
will also address the management and system factors that 
contributed to that. We have carefully studied AECOM's report 
and accept Mr. Walton's thorough and well documented 
assessment.
    As AECOM was conducting its work at Kingston, Stantec was 
busy at TVA's other sites with their technical evaluation. 
Starting in January, Stantec began to inspect, test, and make 
recommendations on our other facilities. We have worked 
aggressively over the last six months to implement their 
recommended changes.
    I also wanted us to take a self-critical approach in 
looking at the hazard classifications of the storage 
impoundments. We were not among those 44 that were originally 
listed. I recognize that and we moved to correct that. Although 
we don't have any indication of these structures being in 
danger of failing, we have reclassified impoundments at four of 
our sites as having high hazard potential. We are prioritizing 
our efforts at those sites.
    In order to fully understand what happened at Kingston, we 
needed also an analysis of TVA's organization and culture. The 
TVA Board of Directors commissioned an independent 
investigation to examine and identify possible management and 
organizational factors that may have contributed to the 
Kingston spill. That work began in January. The investigation 
was led by the international law firm of McKenna Long & 
Aldrich.
    The MLA investigation that was presented to the Board by 
MLA last week and released publicly did identify shortcomings 
and missed opportunities in our organizational effectiveness 
and our accountability. At the Board's direction, we are 
already moving quickly to remedy these shortcomings. I have 
initiated an agency-wide organizational effectiveness plan 
focused on culture change and improving our systems, standards, 
controls, and accountability.
    I am pleased that MLA report recognized that we are making 
some significant remedial progress to prevent any future pond 
spills. But I also want to tell you that I heard the word of 
caution that a comprehensive directive needed to provide 
assurance that best practices would be sustained across TVA, 
owned by senior management, and under the Board's oversight.
    Last week I described the results of the MLA investigation 
to our employees as tough medicine. It is hard to take, but 
tough medicine will make us better.
    Today we have the benefit of the report done by the Office 
of Inspector General. Mr. Moore will testify on that shortly.
    All four reports from AECOM, Stantec, MLA, and the 
Inspector General will help us address both the technical and 
cultural issues that contributed to the Kingston spill. 
Importantly, these reports will be our road map going forward 
both to strengthen the integrity of our facilities and to forge 
a culture of accountability at TVA. Madam Chair, my written 
testimony to submit to the Committee provides more details.
    While we have much more to do, with the Chair's permission 
I would like to give you some idea of the progress we are 
making. We have a long way to go but I would like to show some 
photographs.
    This is the picture of the ash spill as it looks today. 
This is what it looked like shortly after the event. You can 
see the river is filled. We estimate that about three million 
cubic yards were beyond what we called Dike 2. As we have 
dredges in, we now have removed about a half a million cubic 
yards of that material and are continuing to work.
    This is what the railroad and the road looked like the day 
after the event. We have that restored and that road is open to 
the public.
    One of the sloughs nearby, this is a minor slough that we 
call Church Slough. You can see that it was filled with ash. 
This is an example of what we have to do for the rest of the 
site.
    As I said, we have a lot of work to do. We are not finished 
by a long shot. We look forward to continuing to work with the 
Committee as we move forward.
    Ms. Johnson. Thank you very much, Mr. Kilgore.
    We will hear from Mr. William Walton now.
    Mr. Walton. Good morning, Madam Chairwoman and 
distinguished Members of the Committee. I appreciate the 
opportunity to share with you the results of our five month 
investigation of the root causes of the Kingston failure.
    On the morning of December 22nd, 2008, a massive flow side 
occurred. Within one hour it inundated the Watts Bar Reservoir, 
several sloughs, and spilled over onto private properties. 
There were no witnesses to the failure because it was 
nighttime. No one knew where it started or how it happened. Our 
assignment was to answer these questions and to determine the 
geotechnical causes of failure.
    We have conducted a thorough and comprehensive forensic 
investigation and root cause analysis presented in ten volumes 
with more than 5,400 pages. This RCA process involved frequent 
input from TDEC; the TVA OIG and their consultants; the U.S. 
EPA; the Bureau of Reclamation; the insurer's geotechnical 
engineer; and the independent peer reviewer of Dr. Gonzalo 
Castro, an elected member of the National Academy of 
Engineering. We did this to ensure that they would all be fully 
informed of our discoveries and progress as analyses evolved. 
We met on eight separate occasions to share information and to 
refine the analysis methodologies.
    Our written testimony offers lessons learned that can be 
applied to other wet ash disposal facilities. I will show you 
several slides from the testimony that I have submitted that 
illustrate the failure sequence and the controlling factors. 
Due to the time allotment, I will go through these slides 
briskly. However, I invite your questions on any information 
that we have shared with you.
    This is a photograph from April of 2008 showing the 
confinement, the dredge cells, and the ash collection pond. 
Within six months, this tragic and catastrophic failure 
occurred, discharging more than two thirds of the contents 
above the ash collection pond.
    I will show you our opinion on the causation. We are 
looking from northwest to southeast. We believe failure began 
in the northwest corner, originating as a deep seated failure 
internal to the exterior confinement. Like a pie coming out of 
a pie plate, this material heaved out within a very short time 
frame and surcharged the perimeter containment system, causing 
a overload on the outboard containment. That caused that 
outboard containment to breach, making the liquid contents 
liquify and flow out. From a 3H:1V slope this flowed out to an 
angle of repose less than one half degree.
    I will show you a few historic photographs to see the 
progression of this site. In 1949, this was a lake making up 
the Watts Bar Reservoir created in 1942. The dotted red line 
indicates the outside containment system hopping from island to 
island. Note that for the first three or four years of 
operation, from 1954 to 1958, the ash was released directly to 
the waters of the Watts Bar Reservoir. This system was firing 
power to Oak Ridge as a national defense facility.
    By 1958, the containment pond was established. Here again I 
will show you in green the distance that ash from the plant 
would have to travel for waters to be released back to the 
reservoir. It was over 5,200 feet, a mile. This ash would 
collect from the coarsest grains on the south to the most fine 
grains on the north. As we progress with time, this eventual 
ash pond was eventually filled in and the material was stacked.
    In 1984, in an effort to provide more material within the 
confines of this containment system, a dredge cell super 
elevated above the ash pond was created to store more material 
as the plant operated.
    By 1996, engineering plans were done to expand the facility 
vertically.
    By 2005, this photograph shows you the three cell system 
that was collecting ash was now down to two. The footprint of 
the disposal was getting smaller but the structure was getting 
higher. Notice in red is the 2003 slide event where seepage in 
piping occurred.
    We looked at 12 failure modes at this particular site 
identified in our work scope in late December and early 
January. We then evolved to four controlling factors. It is too 
hard to read all of these but these are a part of the testimony 
that are included in the slides.
    The point of fact is that this structure, on its way to be 
built to the year 2014, did not make it to its ultimate height. 
The red line demarks its failure.
    The underneath foundation is shown to be a material of the 
finest grains that had traveled the furthest early on in the 
progression of this particular disposal facility. It is a 
slime, a mining term meaning a material that travels the 
farthest, that drops out at the last, being the finest, loosest 
materials accumulating on the bottom. Those slimes were found 
in the upper portion, the northernmost portion, at the furthest 
distance from its deposition.
    Again, it was an issue of finding these with an extensive 
exploration program. We were able to see the slide plane and 
identify these slimes through undisturbed sampling. We were 
able to analyze the stability of those sections that failed on 
the north as well as those sections that did not fail to the 
east or were consequential to failure on the west.
    I will take you very quickly through the progression of 
failure in cross section as you would look west. The early 
portion would fail like the pie I explained. That material 
would surcharge over the initial containment dike, causing it 
to be overstressed and breached. Notice the issue on the right 
side. The flood wave from this event was a 47 foot flood wave 
above the operating pool, clearly a very dramatic failure in a 
very short period of time, resulting in the release of the 
materials.
    This leads us to the conclusion of four controlling factors 
or failure modes that led to this: The load was impacted by the 
ever increasing height and the constant force of ash. The 
containment system was discontinuous and separated. That laid 
on a foundation, and the foundation serves as the footing for 
the building or home or whatever. The foundation is important. 
If those three elements are weak and you contain a loose, wet, 
liquefiable ash and lose your containment, it then can be 
released in a very dramatic manner, 5.4 million yards.
    Thank you very much.
    Ms. Johnson. Thank you very much.
    Mr. Richard Moore.
    Mr. Moore. Good morning, Madam Chairwoman Johnson, Ranking 
Member Boozman, and Members of the Subcommittee.
    I am TVA's Inspector General, having been appointed to this 
position by the President in May of 2003. Prior to becoming the 
first Inspector General appointed by a President at TVA, I was 
a Federal prosecutor in the southern district of Alabama for 
approximately 18 years.
    It is a pleasure to be able to testify here today about the 
Office of Inspector General's review of the coal ash spill at 
TVA's Kingston Fossil Plant in December of 2008. I believe you 
have a copy of our report which, as you mentioned, is becoming 
public today.
    Mr. Moore. The Kingston spill has brought intense scrutiny 
upon TVA, as is well known, and with it a call for more 
oversight of the agency. The conditions at TVA that led to the 
disaster of December 22nd, 2008 have existed for decades. It is 
unfortunate that it has taken this kind of incident to prompt 
changes.
    The TVA culture at fossil plants relegated ash to the 
status of garbage at a landfill rather than treating it as a 
potential hazard to the public and to the environment. We 
believe this culture resulted in management failures which 
contributed to the Kingston spill.
    Our report points out a number of issues that I would 
summarize into basically three categories. First are the 
warnings and red flags. Those warnings and red flags were 
raised by outside consultants and internal staff but were 
simply not addressed. Number two, there was an inadequate 
system of management controls as evidenced by fragmented 
organizational structures, a lack of policies and procedures, 
and inadequate training for dike inspectors. Number three, 
there were poor management practices that included a lack of 
maintenance of dikes and overall poor communication between 
organizations. Our report provides a more detailed discussion 
of each of these items.
    Madam Chairwoman, you have said that the Kingston spill was 
caused by regulatory neglect, a lack of Government oversight, 
and irresponsible coal ash practices. Our report that we make 
public today supports your statement.
    TVA management knew, for example, that consultants had been 
hired by them and had urged them to perform a much needed 
analysis and to take specific corrective actions. TVA 
management knew that they had failed to follow the engineers' 
recommendations and that they had failed to perform the 
analysis or take the corrective actions. TVA's management also 
knew that it had a history of poor maintenance of its ash ponds 
and that it had experienced seeps or breeches in the past. 
Finally, TVA management knew that there were no policies or 
procedures for the management of coal ash. Documents supporting 
what I have just said are a matter of public record, have been 
made available by TVA through litigation. These facts are 
widely known.
    The TVA Board appears to clearly understand the gravity of 
the situation. Recently they have taken bold steps to address 
the problems that we have identified in our report. Also, 
although TVA management was slow to publicly discuss management 
failures, as we point out in our report, I am pleased to say 
that they have made great strides in starting a long process to 
not only rebuild the ash management program but to attempt to 
rebuild the trust and respect of Congress, the American people, 
and TVA's many stakeholders.
    This will not happen without continued oversight by this 
Subcommittee and other oversight authorities including that of 
the Office of Inspector General. We are committed to devoting 
resources to monitor TVA's new commitment to transparency and 
accountability. We welcome your support in that endeavor.
    In addition to the recommendations in our report, the 
Office of Inspector General recommends that Congress hold 
regular oversight hearings to determine number one, whether 
TVA's coal ash facilities have either been closed properly or 
modified to an appropriate safety level; number two, whether 
TVA's culture has in fact been changed to become more 
transparent and more accountable; and finally, whether TVA has 
fulfilled its responsibilities to the citizens of Roane County 
to clean up their community and to make them whole.
    Madam Chairwoman, this concludes my opening remarks. I look 
forward to answering any questions that you or the Committee 
may have.
    Ms. Johnson. Thank you so very much.
    Mr. William Almes.
    Mr. Almes. Good morning. Madam Chairwoman Johnson, Ranking 
Member Boozman, and Members of the Subcommittee, my name is 
William Scott Almes. I am the Director of Geotechnical 
Engineering for Marshall Miller & Associates. I am a licensed 
professional engineer with a Bachelor of Science and a Master 
of Science in civil and geotechnical engineering. I have worked 
in the field as a consulting engineer for nearly 20 years.
    I was the lead project manager on a peer review of the 
study commissioned by TVA to determine the root cause of the 
December 22nd, 2008 ash spill at TVA's Kingston Fossil Plant. I 
appreciate this opportunity to testify before you regarding the 
results of that peer review and other observations about ash 
management practices at TVA. We prepared this work for the TVA 
Office of Inspector General. The details of it are incorporated 
into their report that is being made public today.
    I will now summarize the results of our work focusing on 
three important topics. First is Marshall Miller's conclusions 
regarding the root cause analysis. Second is our general 
conclusions and observations of ash management practices. Third 
is our recommendations for moving forward.
    Our first conclusion regarding the root cause analysis is 
that, in Marshall Miller's opinion, the four probable root 
causes identified by AECOM are technically plausible, 
reasonably supported by the data, and that all four contributed 
significantly to the spill. However, Marshall Miller believes 
that the AECOM root cause analysis focuses disproportionately 
on the significance of this thin, discontinuous soft foundation 
layer, which has been called a slimes layer or sensitive silt 
layer, as one of the most probable root causes.
    The significance of the ``fill geometry'' and the ``loose 
wet ash'', in other words, hydraulically placed or sluiced ash, 
indicate these factors also as probable root causes of equal or 
greater significance to the soft foundation soils factor. They 
should be equally emphasized. In Marshall Miller's opinion, the 
failure was not strictly associated with the thin, weak, 
sensitive silt and slimes foundation layer and more associated 
with the ash dike geometry and the relatively low strength of 
this sluiced loose wet ash and impounded material.
    Lastly, this has significant implications for TVA and the 
power industry. Other similarly constructed TVA impoundments 
with or without the slimes layer could be at risk of failure 
and should also be investigated.
    I will now focus on our general conclusions and 
observations concerning ash management. As early as 1985, 
intrinsic problems related to the stability of Dike C, which is 
the original dike, were known by TVA. An internal memorandum 
included in our report indicated that the calculated factor of 
safety for stability was less than the minimum accepted value 
of 1.5. Close monitoring was recommended at that time to detect 
any potential signs of failure in lieu of changing TVA policies 
and procedures that would require that the ash pond be designed 
to a higher dam safety standard. No specific action by TVA 
appears to have been taken to improve the stability of the 
earthen Dike C embankment.
    In Marshall Miller's opinion, if TVA had included its ash 
ponds in a dam safety program, as discussed in the December 
1988 memorandum when TVA decided against this policy, the 
probability of identifying some or all of the conditions that 
led to the failure would have increased significantly.
    The construction of successive upstream stages to an 
elevation of 820 feet, which is the approximate failure 
elevation, above the original containment dike may have 
contributed to an additional decrease in the factor of safety 
of the containment dike system. In essence, at the time of 
failure, this increase in constructed height was approximately 
70 feet higher than the original crest elevation of Dike C.
    The design of the Kingston coal ash dredge cells should 
have included a thorough engineering evaluation of all 
potential failure modes. Our recommendations for moving forward 
is that, since in our opinion, the Kingston ash pond failure 
was not strictly associated with the thin, weak sensitive silt 
and slimes foundation layer and more associated with the ash 
dike or fill geometry and the relatively low strength of the 
sluiced wet ash, other similarly constructed ash impoundments 
could be at risk of failure and should be properly 
investigated.
    TVA and the power generation industry as a whole should 
strongly consider all the factors evaluated by AECOM as 
probable root causes of the Kingston failure when assessing the 
condition and structural integrity of wet ash disposal 
facilities. It is not prudent to presume that, if slimes 
observed in the failed section at Kingston do not exist at any 
other sites, there is adequate stability of these structures. 
On the contrary, the information developed from the extensive 
studies conducted by Stantec and AECOM indicates that there is 
reasonable risk of other dike failures if changes are not made 
in the design, construction, oversight, and operation of these 
facilities.
    Lastly, sound engineering practice is to design such 
facilities with features that provide a reasonable degree of 
redundancy or a second line of defense in the event that one or 
more of these systems become inoperable. It is important that 
this design philosophy be applied to all of TVA's ash disposal 
facilities.
    This concludes my statement. I look forward to answering 
any questions you may have. Thank you very much.
    Ms. Johnson. Thank you very much.
    We will begin the first round of questions now.
    Mr. Kilgore, first of all, thank you for the pictures of 
the cleanup of Church Slough. I am really delighted and pleased 
at what this remediation of the Kingston spill can look like 
once it is all clean.
    As you noted in your testimony, I have traveled to Kingston 
and have seen the spill firsthand. Not 500 feet from the area 
shown us in the photographs is another contaminated area known 
as the embayment. Can we get a commitment from you today that 
you will restore that greater area to the same standards and 
the same conditions as you demonstrated is possible in the 
Church Slough?
    Mr. Kilgore. Yes, ma'am. We have made that commitment that 
we will clean up the river first, as the EPA has testified. 
Then we will move to the embayment. Then we have to move to the 
failed cell itself and fix that. So we have really three areas. 
We are committed to fix all three of those areas.
    Ms. Johnson. Now, you have seen this. I don't know how long 
it took for the buildup to come but have you determined how 
often you might need to move this out to keep it from 
accumulating to that level again?
    Mr. Kilgore. How often we might need to move this ash?
    Ms. Johnson. Yes.
    Mr. Kilgore. Yes, ma'am. We are designing a dry collection 
system there. That ash will have to be stored off-site. We 
intend to dry all of those ponds out so that we do not have wet 
storage on-site. As we move forward with that, as we design and 
implement that dry collection system, I anticipate all the ash 
will be transported off-site.
    Ms. Johnson. I understand you are moving it now to Alabama?
    Mr. Kilgore. We are.
    Ms. Johnson. Is that going to be a permanent place that you 
may be able to take it?
    Mr. Kilgore. No, ma'am. I wouldn't say that. We solicited 
bids from all locations that had the proper permits. We got 
several responses to that. We selected the site we did because, 
after we tentatively looked at that, I sent two of my senior 
executives down to look at it and talk to the community. They 
made sure that they were ready to receive it, that the pond and 
the permit looked in order, and all of that. Then we asked EPA 
for approval to ship that. We have committed to ship about 
three million tons out of the existing 5.4 million that we need 
to recover. We will be continuing to look at other sites for 
shipment.
    Ms. Johnson. Thank you very much.
    Mr. Stanislaus, in your testimony you state that EPA 
continues to evaluate coal ash disposal practices at coal-fired 
power plants to determine if these facilities are in compliance 
with existing environmental laws. Would you provide us a 
summary of the findings so far? Please also speak to compliance 
with Clean Water Act discharge permits.
    Mr. Stanislaus. We are in the midst of doing the 
assessment. We expect to complete the assessment of the high 
hazards and significant hazards by the end of this year. When 
we complete that we will certainly provide that to the 
Committee and yourself.
    Ms. Johnson. Now, let me just ask this one last question to 
you. In your view, from both storage and water quality 
perspectives, should coal-fired power plants be using wet ash 
disposal methods or dry?
    Mr. Stanislaus. Clearly, the use of wet ash is a 
significant risk that we are looking at in terms of our rule 
making. It has been identified as a risk of impact to 
groundwater and water quality. That is something that we are 
taking a hard look at in terms of our rule making, which we 
will be completing by the end of this year.
    Ms. Johnson. Do you plan to modify your oversight with TVA 
in view of the Inspector General's testimony?
    Mr. Stanislaus. TDEC, the Tennessee Department of 
Environment and Conservation, has a local lead of that. We are 
working with TDEC in terms of its oversight. We are in the 
field in terms of overseeing the removal of the coal ash from 
the river. We will be there throughout the removal of the coal 
ash.
    Ms. Johnson. Yes, but I mean in general. I also would like 
to say, too, that until EPA really got involved, according to 
the people in the area, they didn't see much change. What kind 
of oversight will be performed by those persons that have that 
responsibility?
    Mr. Stanislaus. EPA is on the site every day overseeing the 
work.
    Ms. Johnson. They are now?
    Mr. Stanislaus. Yes, they are.
    Ms. Johnson. Thank you very much.
    Mr. Boozman. Thank you, Madam Chair. Mr. Moore, you 
mentioned that you agreed with the statement about poor 
oversight and lack of regulation as a contributor. I guess my 
question is poor oversight from whom? Is it the State or EPA? 
Your Office plays a role in this.
    Mr. Moore. Certainly, as you are aware, the Kingston 
facility was licensed or permitted as a landfill. There is a 
question about how adequate that regulation was. There is also 
a question, and I believe Mr. Walton FE
    Mr. Boozman. In regard to that regulation, whose fault is 
that?
    Mr. Moore. I don't necessarily want to pin fault, but I 
would say FE
    Mr. Boozman. But that is your job.
    Mr. Moore. Well, TDEC certainly was the regulating 
authority. The question would be whether there should be other 
regulators on these types of facilities. Certainly if they were 
regulated as dam structures, as I believe both Mr. Walton and 
Mr. Almes would recommend, there would have been more strenuous 
examination. If that had been done in this case, I am reliably 
told by Mr. Almes from Marshall Miller that it is possible that 
the Kingston spill would not have occurred.
    Mr. Boozman. So EPA was doing their job?
    Mr. Moore. Well, I don't know what EPA's jurisdiction would 
have been over a landfill at the time.
    Mr. Boozman. You mention that lack of regulation. Was it 
lack of regulation or just failure to enforce the current 
regulation? I think that is important. I don't know. That is 
why we are asking these questions.
    Mr. Moore. My observations, sir, would be that even strict 
regulation of a landfill, when you have the combined 
geotechnical forces that were at work here, would not have been 
sufficient.
    Mr. Boozman. Very good. Mr. Kilgore, what steps is TVA 
taking to ensure that this doesn't happen at the other coal ash 
storage facilities? In particular, I know TVA utilizes wet ash 
storage at other sites, some of which are no longer in 
operation. While TVA is proposing to close the five operational 
wet coal ash disposal sites, what is TVA proposing to do with 
those sites that are no longer in operation?
    Mr. Kilgore. We have one of those sites, sir, at the Watts 
Bar Fossil Plant. We have contained it. The other five sites 
that are wet storage, besides Kingston, we are moving forward 
with a plan to take all of those to dry storage. So we are 
going that way.
    What we have done in the last six months is Stantec's 
identification. They walked down all the facilities and they 
identified initial issues that we needed to correct. We have 
hauled about 82,000 tons of rock to shore up various places. We 
have cleaned out vegetation so that the inspectors can see 
better. But I think the most important thing is that we have 
gotten a lot more intrusive. In other words, instead of doing 
visual investigations, we have drilled holes. Stantec has gone 
out there much like AECOM did on the failed facility and 
drilled into these dams to ascertain what is underground so 
that they know what is underground. That gives us some more 
comfort but we will not be comforted until we know exactly what 
is down there and we take all the remedial actions. We have 
tried to unstop all the drains to make sure the drains are 
properly operating. We have tried to backfill, as I said, with 
stone. We put piezometers down, about 250 piezometers in these 
ten other sites, so that we can see movement and see water.
    Mr. Boozman. Very good. I have one final question, Mr. 
Walton, real quick. When you all were contacted to look into 
this and figure out what was going on, the root cause, were you 
just asked to do the technical aspects of it or did you get 
into the corporate culture and things like that? Were you asked 
to do both?
    Mr. Walton. No. Our role was the technical review of the 
root cause for failure, the cause location and explaining the 
failure mechanism.
    Mr. Boozman. Okay. Thank you all very much. Thank you, 
Madam Chair.
    Ms. Johnson. Thank you very much. Mr. Griffith.
    Mr. Griffith. Thank you, Madam Chair. The EPA initiated a 
report in 2002 that has just been released in 2009 that 
demonstrates the carcinogenic effect of coal ash combustion 
material from coal. Are you familiar with that report release 
in 2009?
    Mr. Stanislaus. I am not specifically familiar with it.
    Mr. Griffith. Let me tell you a little bit about it. In 
1775, a year before 1776, Dr. Percival Pott described coal 
combustion causing cancer in chimney sweeps. We have known for 
that many years that these were carcinogenic agents that we 
were producing. We have noted that all through the subsequent 
years. In 2009, a report was issued that had been ongoing since 
2002 within your agency. It demonstrated that the increased 
risk of cancer around these coal ash deposits was significant.
    My question is this: Do you believe that, had you told Mr. 
Kilgore about those findings, there would have been a 
heightened responsibility on the part of TVA? This dump in 
particular was unlined and leaking into the goundwater. As far 
as EPA is concerned will this spill have far reaching 
consequences? The second part of that question is how are you 
going to know when you have got that site cleaned up, if a 
great majority of it has already gone downriver?
    Mr. Stanislaus. With respect to your first question, 
clearly this spill is a catastrophic event that should not have 
occurred. Clearly the constituents in coal ash are something 
that we are taking a look at in terms of regulation. We will be 
issuing that regulation later this year. So we are taking this 
seriously, the consequence of the constituents in that.
    With respect to knowing when we are done, that is frankly 
our job. We have historically remediated river sites. We will 
ensure that everything is removed from the river.
    I don't know if Mr. Meiburg wants to add to that.
    Mr. Meiburg. I would only add to that, Congressman, that 
fortunately, or unfortunately depending upon your point of 
view, most of the material actually stayed in some vicinity of 
the site. Our highest priority on the cleanup has been to get 
the material out of the main stem of the Emory River to make 
sure that more doesn't go downstream, especially during the 
spring flood period. That is why we have been pushing to 
accelerate the removal of the material from the river, so that 
we could try to get most of it out of the main stem before next 
spring. We have been making accelerated progress on that with 
TVA over the last couple of months. We expect to continue that.
    Mr. Griffith. Thank you. This issue really is not, I am 
changing gears a little bit, this issue is really not about 
cleanup. Mr. Almes, I think you were probably not surprised at 
the spill after being an engineer and inspecting. I don't think 
anyone is faulting anyone on the cleanup. What we are concerned 
with is the multitude of areas in the country that are very 
similar to Kingston. I know that you have had that experience 
in Iowa. We have had that experience in Pennsylvania.
    We do know that this coal ash is as carcinogenic as nuclear 
waste. We know that arsenic, selenium and boron are chemicals 
that we are finding in the waste. And we know that they are now 
present in the drinking water in many communities. How can we 
reassure our constituents? Since the Tennessee River runs 
through my district, how can we reassure my constituents that 
they are safe, that we are keeping them safe?
    Mr. Stanislaus. I presume that is directed at me.
    Mr. Griffith. Well, anybody can chime in on that one if you 
have got a good answer.
    Mr. Stanislaus. As Administrator Jackson has committed, we 
are going around the Country and doing an assessment of all 
facilities with high and significantly high hazard ratings. 
That will be done by the end of this year. We will also be 
taking a look at all of the facilities to assess where there is 
any risk of failure and prevent that. Also, if there are any 
violations, we plan to do enforcement actions. Those are the 
short term actions. We are simultaneously looking at the risk 
and the need to develop some rules to prevent any impact to 
groundwater or surface water.
    Mr. Griffith. This is just for Mr. Kilgore. My question is 
whether we should rely on State agencies? Should we punt the 
responsibility to a State agency that apparently has failed us 
in this area as far as inspections?
    In your organization, and I know you are new to the job, 
essentially, and inherited a great deal of this, are heads 
rolling? Are you getting anybody's attention there? TVA is like 
turning around the Queen Mary. This will take a while. What can 
we look forward to there?
    Mr. Kilgore. Well, we have to change. If that means heads 
have to roll or people have to leave, so be it. You would find, 
if you go back from when I arrived until now, that about two 
thirds of the senior management has changed. About 90 percent 
of the plant managers have recently been rotated or, in some 
cases, new plant managers have been installed so that we have 
new eyes on this problem.
    If I have learned one lesson about this, it is to be 
intrusive and to be self-critical about things we don't know 
about. That means that occasionally we need fresh eyes on the 
subject and that we don't allow these waivers, if you will, 
from looking at things.
    I will be honest, the memorandum that was mentioned earlier 
in 1985 said that the safety factor was not what it should be. 
But further down it said that the remedy is a daily inspection. 
That is not good enough. Knowing what we know now, it is not 
good enough that the remedy was a daily inspection. The safety 
factor has to be increased. We are the first line of defense on 
that and we have to do that.
    Mr. Griffith. I have one last thing, Madam Chair. I am over 
time but I am concerned that we might be allowing TVA to grade 
its own paper. In an agency that big, I know that you can't sit 
there and watch them take the test. So my concern is that 
grading your own paper is a great danger to us. Should we have 
random independent inspections of facilities outside of the TVA 
organization?
    Mr. Kilgore. I think that is a question more to our 
regulators, EPA. But I will tell you that we welcome the 
outside. I have learned a lot in this. I don't think we are 
grading our own papers since I have got EPA, TDEC, the OIG, and 
an outside law firm that the Board employed. I have got four 
people looking over my shoulder. We have put over 20,000 pages 
of documents on the website so that everybody else can see 
that. Some of those are very painful for me. I am both saddened 
and frankly a little bit mad that I walked into this. But it is 
my responsibility now that we have found it to clean it up and 
to change the culture.
    Mr. Griffith. Thank you, Mr. Kilgore. Thank you, Madam 
Chair.
    Ms. Johnson. Thank you very much. Mr. Hare.
    Mr. Hare. Thank you, Madam Chairwoman. Mr. Kilgore, in 
early July after the release of the root cause analysis by 
AECOM, the TVA released a statement that included the following 
statement. It says, ``TVA has asked Stantec to pay particular 
attention to the four major contributing causes of the Kingston 
ash spill to ensure the combination does not exist at any other 
site. To date, nothing has been found that indicates that this 
combination exists at other TVA facilities.''
    Based on the earlier statements by Mr. Walton and Mr. 
Almes, I wonder if you could explain the public statement by 
TVA? In my view, this seems to imply that because that 
particular combination does not exist, there is no viable 
threat of collapse at these other facilities. I was wondering, 
do you share that same plain reading interpretation?
    Mr. Kilgore. I do not share that interpretation. Thank you 
for asking that question. We obviously, since those four 
factors were identified, pay particular attention to them 
because I don't want any of those four factors to catch us 
again. Stantec has been debriefed regularly by AECOM so that 
they know what is going on. But they have not been limited to 
that. What we are concerned about is that all the rest of these 
structures, frankly, may be individual. None of them may be 
like the other ones. So we have got to be, as I said earlier, 
intrusive in each one of them.
    AECOM drilled many, many holes. They even asked us to cut a 
slice in the old dike at Kingston so that they could see what 
was really down there. We are asking Stantec, they have already 
started doing that and they have completed quite a bit, to put 
those instruments down there.
    So the implication that if these four factors don't exist 
elsewhere we are home free is not an implication that I agree 
with. We have to treat each one of those as its own individual 
structure.
    Mr. Hare. In your testimony today you state, ``There is no 
evidence of imminent failure at other TVA sites based on 
initial Stantec evaluations.'' However, in its recent Phase I 
assessment report, Stantec itself states, ``Due to limited 
record drawings and construction QA/QC documentation at any of 
these facilities, Stantec is unable to render opinions relative 
to overall structural integrity.'' These two statements seem to 
be wildly inconsistent.
    So, especially in light of the findings by the McKenna and 
the TVA OIG reports concerning a broken culture of 
accountability, this seems very troubling. Can you maybe 
comment on this and enlighten me?
    Mr. Kilgore. I will try. Let me address the Stantec report 
first of all. What I understand from that, in talking to them 
and others of my staff, is that when they looked at our 
drawings they indeed found this culture problem. We had the 
drawings of how the dams were supposed to be built but they 
didn't have as-builts. So we didn't know what was changed and 
we didn't know if they were built according to those drawings. 
That is why we asked them to go be intrusive, to drill, to find 
out everything they could about the as-built condition.
    So, yes, they can't give me an unequivocal statement that 
this is not in danger of failing. What we are doing is 
following their advice, letter by letter, and trying to go 
frankly a little overboard with some of it in terms of our 
clearing and our progress toward drying it out.
    As I said earlier today, I will not be comfortable until we 
have the knowledge of what is underground on all of these. 
Stantec has a few months yet to work on this to complete their 
work. Even then, I think we still have to be self-critical and 
intrusive.
    Mr. Hare. I have just one last question, maybe for the 
panel. I apologize because I came in late. What was the total 
cost of this cleanup to the American taxpayers? What was the 
total cost?
    Mr. Kilgore. The total cost, we estimate, will be right at 
$1 billion.
    Mr. Hare. $1 billion?
    Mr. Kilgore. $1 billion.
    Mr. Hare. Thank you, Madam Chair.
    Ms. Johnson. Thank you very much. Congresswoman Napolitano.
    Mrs. Napolitano. Thank you, Madam Chair. Of great interest 
to me especially is the area of groundwater. Mr. Kilgore, I am 
under the impression that groundwater contamination was a 
problem before. Where there is a combination of dams and wet 
ash, is there leakage into an aquifer underneath that might 
contaminate aquifers in the area from which people drink?
    Mr. Kilgore. We have no evidence that I know of that it is 
leaking into the aquifer. We have wells and we are monitoring 
those. So we have no evidence so far. I will let the EPA 
comment, but they commented also on the water and the intake 
structure. We have been monitoring FE
    Mrs. Napolitano. There is no lining.
    Mr. Kilgore. Excuse me?
    Mrs. Napolitano. There is no lining underneath.
    Mr. Kilgore. You are right. There is no lining. This ash, 
though, settles. The metals are not all soluble so it settles. 
We think it stays there, unless we have an incident like this. 
So our greatest need is to get all of this out of the river and 
back onto dry land so it can dry out.
    Mrs. Napolitano. Another area of concern, of course, is in 
the July 2009 report of TVA's Inspector General. Appendix C 
includes an internal TVA memorandum. Point four of this 
memorandum, ``Because of concerns about groundwater 
contamination, TVA is moving away from wet ash disposal 
techniques to dry stacking.'' I would like to ask if you can 
provide the Subcommittee with copies of the analysis that went 
into formulating these concerns about groundwater in 1988, 21 
years ago?
    Secondly, in the 21 years since that analysis was presented 
to TVA management, what specific action or actions have been 
taken to alleviate TVA's own concerns about groundwater 
contamination?
    I am into water. I am, you know, the Chair of the 
Subcommittee on Water and Power. So contaminants are something 
that we have been facing on my own Subcommittee. We have no new 
water sources. So any water that we abuse or misuse, we need to 
clean up.
    I am concerned that any of these pollutants may have leaked 
into or contaminated the reservoir next to the Kingston 
facility. I don't know what EPA has done about making sure that 
contaminants are not being carried out to where effluent is 
being pumped out as fresh water.
    Mr. Kilgore. Well, I am concerned about the water, too, 
because I live there and occasionally go boating. So I share 
your concerns. We do have wells in the area that we are 
monitoring. TDEC looked at 400 wells around the area and found 
no groundwater contamination. That is not a reason for us to 
rest. I take your concerns seriously and we are going to 
continue to look at that.
    Mrs. Napolitano. Would you provide this Committee, then, 
with the copies of that analysis that went into formulating 
that concern in 1988?
    Mr. Kilgore. I will. Let me just admit that what the 
Inspector General found was that there was not proper action on 
some of those older things. I will admit that to you right now. 
That is what I have to change.
    Mrs. Napolitano. Thank you. EPA?
    Mr. Stanislaus. I will let Mr. Stan Meiburg deal with the 
local issues.
    With respect to the impact on groundwater from impoundment, 
that is something we are looking at right now. That has been 
identified specifically as causing damage to groundwater and to 
surface water. We are looking at that in terms of developing 
new rules. Those rules will be developed by the end of this 
year.
    With respect to the specific local concerns, I would like 
to let Mr. Meiburg address that.
    Mr. Meiburg. Yes. As Mr. Stanislaus said, groundwater 
contamination from these types of facilities has been a concern 
to EPA. Whether or not groundwater contamination occurs in part 
depends on the geological structure that underlays them. We 
have done pretty extensive sampling, along with the Tennessee 
Department of Environment and Conservation, at this particular 
site. It appears that in this case we have been fortunate. 
There has not been migration of contaminants through a 
groundwater pathway in any of the samples that we have taken so 
far.
    Mrs. Napolitano. How often do you test those areas?
    Mr. Meiburg. We have been testing those areas very 
frequently now.
    Mrs. Napolitano. Frequently meaning daily, weekly, or 
monthly?
    Mr. Meiburg. No, we have not been doing daily samples. What 
we have done is gone and tested the wells, as Mr. Kilgore said, 
together with TDEC and TVA since the accident occurred. We have 
not yet found any movement into any of the wells that are 
tested. But it is not a regular sample. It has been a sample on 
request and demand.
    Mrs. Napolitano. I have a great concern about the cost to 
the general taxpayer, number one. Number two is the health and 
safety of those areas. Then, of course, number three is whether 
or not it becomes an issue that then comes back to the Federal 
Government to clean up. I have a contaminated site that has 
involved maybe 20 years in cleanup, costing millions upon 
million of dollars. The taxpayer is paying for it because the 
potential responsible parties are long gone.
    I am certain that we don't want to face anything like that, 
maybe, in the other areas where you may have these same 
facilities. Steps must be taken to protect the water safety, 
the public safety, and any other area that is of concern. Mr. 
Kilgore?
    Mr. Kilgore. Yes, ma'am. TVA does not get Government 
funding so all of this will fall to us to pay. Unfortunately, 
the steps that we didn't take in the past will now fall on our 
rate payers. We will have to pay for that through our electric 
bills. We intend to try to stretch that out. This problem 
didn't occur overnight so we are going to try to amortize that 
out over several years. Still, as you indicate, somebody has to 
pay for the oversights in the past. As I said, my job is to 
make sure it doesn't happen again.
    Mrs. Napolitano. Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. Hall.
    Mr. Hall. Thank you, Madam Chair. I am sorry for being 
late. I was double-booked, as many of us are. It so happens 
that I was at the Select Committee for Energy Independence and 
Global Warming where we heard, among other things, testimony 
from Dr. Brent Constantz, a professor from Stanford University 
and CEO of Calera Corporation, who talked about a potential 
future solution to this kind of problem.
    I am just curious, Mr. Kilgore or any of the engineers, if 
you would comment on this CMAP technology, Carbonate 
Mineralization by Aqueous Precipitation, in which the natural 
carbonate mimics corals when they make their external skeleton, 
capturing CO2 emissions and storing it in a stable mineral 
form.
    It can be used to replace or supplement traditional 
Portland cement, offsetting emissions that would otherwise 
result. It can be used as aggregate as well. The estimated 
current market demand for cement and aggregate is over three 
billion tons per year in the United States alone and over 30 
billion tons per year worldwide.
    The process has the potential to provide a positive use of 
the overwhelming majority of U.S. coal fired emissions, 
including solid waste normally bound for landfills such as fly 
ash, luminous smelt, or byproducts such as red mud and other 
waste products that can be incorporated into this process. I 
know we need to solve this problem; we need to deal with the 
existing old technologies. But this seems to me like maybe a 
promising road for TVA to look at.
    Mr. Kilgore. Yes, sir. I am not prepared to answer that 
today but I would like to have my research and development 
folks give me an answer for you and to file that for the 
record.
    I will say that as to climate change, TVA approved about a 
year ago a goal to get us to less than 50 percent carbon-based 
generation by the early 2020s. So we are cognizant of the 
issue. This sounds like something that I would very much like 
our engineers to look into.
    Mr. Hall. I will make sure you get a copy of it. We got all 
excited in the other hearing when we heard about this stuff.
    I wanted to ask about specifically what actions, this is to 
EPA, what actions have been taken at TVA's Widows Creek, Bull 
Run, and Colbert power facilities? What enforcement actions has 
EPA engaged in? Why has EPA not enforced the Clean Water Act 
and other statutes as a result of this known pollution?
    Mr. Stanislaus. With respect to this particular spill, the 
Tennessee Department of Environment and Conservation entered 
into an order with TVA to address the cleanup. EPA subsequently 
entered into an agreement on consent to oversee the cleanup 
work by TVA.
    With respect to Clean Water Act violations, I have to get 
back to you on that.
    Mr. Hall. In the January 2009 Senate Environment and Public 
Works Committee hearing, Mr. Kilgore, you told Chairwoman Boxer 
and Senator Merkley that you would look into the groundwater 
and surface water contamination issues at these three 
facilities, cited by EPA. Could you tell us today how these 
facilities are implicated with the contamination of water? What 
exactly has happened? What steps have you taken and what are 
you looking forward to doing to deal with these facilities?
    Mr. Kilgore. With respect to the three you talked about, I 
didn't find any evidence that we had exceeded any groundwater 
emissions there. We still plan on going to dry storage of the 
ash on those sites. So what we are planning on doing is getting 
rid of the wet storage there. That means that the water is less 
and the volume is less. The ash is stored in a dry state.
    Mr. Hall. Thank you, Madam Chair. I yield back.
    Ms. Johnson. Thank you very much, Mr. Hall.
    I have one final question to Mr. Walton. You mentioned that 
there were lessons learned that are maybe applicable to other 
coal ash storage sites. Can you elaborate a little bit?
    Mr. Walton. I would be honored to. There is a body of 
knowledge that has been gained through the sampling of the 
loose wet ash. There has been an awareness as to the 
containment systems using the upstream dike methods of 
construction, similar in the way that mine tailings facilities 
are done. There have been some lessons learned in that the ash 
does not improve its density with higher and deeper layers 
placed on top of it. I think that is applicable to be used and 
studied at other sites. Certainly the rate of loading is 
important as these sites get higher and higher with the added 
influence of gravity on these structures.
    The lessons learned are that you don't have to have slimes. 
You might have a foundation system made of clays or you may be 
on some loose sands near an earthquake zone for those 
facilities near seismic areas. There are also the issues of 
piping and seepage and water management. These structures are 
made by hydraulic methods, controlling the waters that pass 
through and are contained. So there is water management, 
seepage management, storage, and containment. All these factors 
are lessons learned.
    It is sort of an awakening in that trained engineers are 
able to get out there, inspect, assess, and take this program, 
through your guidance and others, forward so that this won't 
happen again.
    Ms. Johnson. Thank you very much. Mr. Kilgore, what I would 
like to see is some communication between you and entities 
responsible for some of the other spills. See if you can come 
up with something of a plan for how often you have to move coal 
ash to prevent buildup. If you talk to Kentucky and some of the 
other places that have had similar issues, I would appreciate 
it.
    Mr. Kilgore. I will do that.
    Ms. Johnson. Thank you very much. This is the end of our 
hearing.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1348.121
    
    [GRAPHIC] [TIFF OMITTED] T1348.122
    
    [GRAPHIC] [TIFF OMITTED] T1348.123
    
    [GRAPHIC] [TIFF OMITTED] T1348.124
    
    [GRAPHIC] [TIFF OMITTED] T1348.125
    
    [GRAPHIC] [TIFF OMITTED] T1348.126
    
    [GRAPHIC] [TIFF OMITTED] T1348.127
    
    [GRAPHIC] [TIFF OMITTED] T1348.128
    
    [GRAPHIC] [TIFF OMITTED] T1348.129
    
    [GRAPHIC] [TIFF OMITTED] T1348.130
    
    [GRAPHIC] [TIFF OMITTED] T1348.131
    
    [GRAPHIC] [TIFF OMITTED] T1348.132
    
    [GRAPHIC] [TIFF OMITTED] T1348.133
    
    [GRAPHIC] [TIFF OMITTED] T1348.134
    
    [GRAPHIC] [TIFF OMITTED] T1348.135
    
    [GRAPHIC] [TIFF OMITTED] T1348.136
    
    [GRAPHIC] [TIFF OMITTED] T1348.137
    
    [GRAPHIC] [TIFF OMITTED] T1348.138
    
    [GRAPHIC] [TIFF OMITTED] T1348.139
    
    [GRAPHIC] [TIFF OMITTED] T1348.140
    
    [GRAPHIC] [TIFF OMITTED] T1348.141
    
    [GRAPHIC] [TIFF OMITTED] T1348.142
    
    [GRAPHIC] [TIFF OMITTED] T1348.143
    
    [GRAPHIC] [TIFF OMITTED] T1348.144
    
    [GRAPHIC] [TIFF OMITTED] T1348.145
    
    [GRAPHIC] [TIFF OMITTED] T1348.146
    
    [GRAPHIC] [TIFF OMITTED] T1348.147
    
    [GRAPHIC] [TIFF OMITTED] T1348.148
    
    [GRAPHIC] [TIFF OMITTED] T1348.149
    
    [GRAPHIC] [TIFF OMITTED] T1348.150
    
    [GRAPHIC] [TIFF OMITTED] T1348.151
    
    [GRAPHIC] [TIFF OMITTED] T1348.152
    
    [GRAPHIC] [TIFF OMITTED] T1348.153
    
    [GRAPHIC] [TIFF OMITTED] T1348.154
    
    [GRAPHIC] [TIFF OMITTED] T1348.155
    
    [GRAPHIC] [TIFF OMITTED] T1348.156
    
    [GRAPHIC] [TIFF OMITTED] T1348.157
    
    [GRAPHIC] [TIFF OMITTED] T1348.158
    
    [GRAPHIC] [TIFF OMITTED] T1348.159
    
    [GRAPHIC] [TIFF OMITTED] T1348.160
    
    [GRAPHIC] [TIFF OMITTED] T1348.161
    
    [GRAPHIC] [TIFF OMITTED] T1348.162
    
    [GRAPHIC] [TIFF OMITTED] T1348.163
    
    [GRAPHIC] [TIFF OMITTED] T1348.164
    
    [GRAPHIC] [TIFF OMITTED] T1348.165
    
    [GRAPHIC] [TIFF OMITTED] T1348.166
    
    [GRAPHIC] [TIFF OMITTED] T1348.167
    
    [GRAPHIC] [TIFF OMITTED] T1348.168
    
    [GRAPHIC] [TIFF OMITTED] T1348.169
    
    [GRAPHIC] [TIFF OMITTED] T1348.170
    
    [GRAPHIC] [TIFF OMITTED] T1348.171
    
    [GRAPHIC] [TIFF OMITTED] T1348.172
    
    [GRAPHIC] [TIFF OMITTED] T1348.173
    
    [GRAPHIC] [TIFF OMITTED] T1348.174
    
    [GRAPHIC] [TIFF OMITTED] T1348.175
    
    [GRAPHIC] [TIFF OMITTED] T1348.176
    
    [GRAPHIC] [TIFF OMITTED] T1348.177
    
    [GRAPHIC] [TIFF OMITTED] T1348.178
    
    [GRAPHIC] [TIFF OMITTED] T1348.179
    
    [GRAPHIC] [TIFF OMITTED] T1348.180
    
    [GRAPHIC] [TIFF OMITTED] T1348.181
    
    [GRAPHIC] [TIFF OMITTED] T1348.182
    
    [GRAPHIC] [TIFF OMITTED] T1348.183
    
    [GRAPHIC] [TIFF OMITTED] T1348.184
    
    [GRAPHIC] [TIFF OMITTED] T1348.185
    
    [GRAPHIC] [TIFF OMITTED] T1348.186
    
    [GRAPHIC] [TIFF OMITTED] T1348.187
    
    [GRAPHIC] [TIFF OMITTED] T1348.188
    
    [GRAPHIC] [TIFF OMITTED] T1348.189
    
    [GRAPHIC] [TIFF OMITTED] T1348.190
    
    [GRAPHIC] [TIFF OMITTED] T1348.191
    
    [GRAPHIC] [TIFF OMITTED] T1348.192
    
    [GRAPHIC] [TIFF OMITTED] T1348.193
    
    [GRAPHIC] [TIFF OMITTED] T1348.194
    
    [GRAPHIC] [TIFF OMITTED] T1348.195
    
    [GRAPHIC] [TIFF OMITTED] T1348.196
    
    [GRAPHIC] [TIFF OMITTED] T1348.197
    
    [GRAPHIC] [TIFF OMITTED] T1348.198
    
    [GRAPHIC] [TIFF OMITTED] T1348.199
    
    [GRAPHIC] [TIFF OMITTED] T1348.200
    
    [GRAPHIC] [TIFF OMITTED] T1348.201
    
    [GRAPHIC] [TIFF OMITTED] T1348.202
    
    [GRAPHIC] [TIFF OMITTED] T1348.203
    
    [GRAPHIC] [TIFF OMITTED] T1348.204
    
    [GRAPHIC] [TIFF OMITTED] T1348.205
    
    [GRAPHIC] [TIFF OMITTED] T1348.206
    
    [GRAPHIC] [TIFF OMITTED] T1348.207
    
                                    

</pre></body></html>
